                                             Office of the Inspector General
MEMORANDUM
Date:   March 28,     2001                                                                  Refer To:

         William A. Halter
To:      Acting Commissioner

          of Social Security

From:    Inspector General


s b' t .Adherence      to Time   and   Attendance   Policies   and    Procedures   in the    Social     Security
 u Jec ,
         Administration's    Non-Headquarters       Offices (A-13-99-91025)



         The attached final report presents the results of our audit. Our objective was to
         evaluate employees' adherence to policies and procedures for documenting and
         recording time and attendance data for payroll purposes in Social Security
         Administration's non-Headquarters offices.

         Please comment within 60 days from the date of this memorandum on corrective action
         taken or planned on each recommendation. If you wish to discuss the draft report,
         please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
         General for Audit, at (410) 965-9700.




                                                                     James G. Huse, Jr .

         Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



       ADHERENCE TO TIME AND
      ATTENDANCE POLICIES AND
      PROCEDURES IN THE SOCIAL
     SECURITY ADMINISTRATION’S
     NON-HEADQUARTERS OFFICES

  March 2001          A-13-99-91025




 AUDIT REPORT

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      Executive Summary

OBJECTIVE

The objective of this audit was to evaluate employees' adherence to policies and
procedures for documenting and recording time and attendance data for payroll
purposes in the Social Security Administration’s (SSA) non-Headquarters offices.

BACKGROUND
Employees’ salaries and benefits represent a major financial outlay for SSA. In
Fiscal Year (FY) 1999, SSA paid almost $3.6 billion in salaries and leave benefits for its
64,712 employees. The non-Headquarters offices’ 43,216 employees accounted for
$2.3 billion of that total. The accuracy of these payroll expenditures is contingent on an
accurate documentation of employees’ daily work attendance. SSA has internal
controls in place to help maintain the integrity of its time and attendance process.
These include, but are not limited to, retention of complete and accurate underlying
documentation to support payroll expenditures, adequate separation of timekeeping
duties, and sufficient management oversight of the time and attendance process.

SSA's Office of Human Resources (OHR) has performed background work and
concluded that SSA's time and attendance system is labor intensive. OHR concluded
SSA’s time and attendance system was not only labor intensive, but also higher-graded
employees are doing much of the work intended for lower-graded employees’
completion. For instance, information provided by the Office of Workforce Analysis
indicated 4,401 SSA Office of the Deputy Commissioner for Operations personnel,
Grades 11 through 15, were performing time and attendance duties instead of lower-
graded employees (Grade 3 or 4), as intended.

To evaluate adherence to time and attendance policies and procedures, we randomly
selected eight FY 1998 timekeeper unit pay periods to review. We examined each
unit's underlying time and attendance documents and interviewed its timekeeper and
supervisor/manager. In addition, we reviewed and compared the documentation to
information contained in SSA’s computerized payroll system to determine whether time
and attendance and leave data had been correctly and consistently reported and
recorded.

RESULTS OF REVIEW

We found that SSA’s policies and procedures for documenting and recording time and
attendance data were not consistently followed. Specifically, SSA did not retain
complete and accurate documentation, maintain adequate separation of duties, and
perform management oversight effectively. Therefore, the payroll expenditures were



Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)           i
not always supported by underlying documentation, and the payroll system was subject
to waste, fraud and abuse.

�	 Time And Attendance Documentation Was Not Properly Maintained To Support All
   Payroll Expenditures

�	 Timekeeping Units Using Manual Sign-In/Out Rosters Did Not Always Maintain
   Adequate Separation Of Incompatible Duties

�	 Supervisors Did Not Always Properly Approve Leave Applications And Credit Hour
   Authorizations

CONCLUSION AND RECOMMENDATIONS

SSA non-Headquarters offices’ lack of compliance with policies and procedures
undermines the integrity of SSA’s time and attendance payroll system by providing the
potential for circumvention of internal controls built into the system. It also increases
(1) vulnerability to fraud, waste and abuse by providing employees with the opportunity
to manipulate time and attendance records without timely detection and
(2) susceptibility to incorrect payment of salaries, over/under payroll budgeting, and
inaccurate accrual and use of leave.

To prevent further vulnerability to errors, as well as fraud and abuse, we recommend
that:

1. SSA issue directives to all non-Headquarters offices that:

   a.	 Timekeepers retain and maintain complete time and attendance documentation
       in support of all time and attendance data, in accordance with SSA retention
       requirements.

   b.	 Office managers ensure that they, their supervisors and timekeepers document
       time and attendance in accordance with SSA policy and procedures.

   c.	 Office managers ensure that they and their supervisors obtain, sign, and verify
       SSA’s Application for Leave (Form SSA-71) for completeness and accuracy.

2.	 SSA’s OHR develop a single, comprehensive set of policies and procedures for time
    and attendance activities.

3.	 SSA should develop and implement an automated payroll time and attendance
    system that would facilitate adherence to its policies and procedures, incorporate
    strong internal controls and be less labor intensive than the current process.




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)          ii
AGENCY COMMENTS

SSA agreed with the original first three parts of Recommendation 1 as it appeared in
our draft report. However, SSA disagreed with the original fourth part of
Recommendation 1 that addressed the requirement for employees’ to have written
supervisory approval prior to earning credit hours. The Agency pointed out that, since
the completion of our audit work, there has been a change in this requirement.
According to SSA’s contract with the American Federation of Government Employees
(AFGE), employees can obtain either oral or written supervisory approval.

SSA also disagreed with Recommendation 2, stating it already has a comprehensive
set of time and attendance policies and procedures. The Agency also pointed out it is
developing a new time and attendance system. During this process, the Agency will
review its time and attendance policies and procedures to ensure consistency and
accuracy with the new automated system.

The Agency agreed with Recommendation 3.

OFFICE OF THE INSPECTOR GENERAL RESPONSE

We agree the new AFGE contract makes it impossible for SSA to address the original
fourth part of Recommendation 1. Therefore, we are not including this part of the
recommendation in our final report.

For Recommendation 2, SSA stated it believes it already has a comprehensive set of
policies and procedures for time and attendance activities. We agree. However, they
are contained within a number of different sources, such as from the General
Accounting Office, the Department of Health and Human Services, and the Agency’s
Mainframe Time and Attendance System manuals. These are not consolidated in a
single, comprehensive set that are specific to SSA. To clarify our meaning of
“comprehensive,” we are modifying our recommendation to read: “SSA Office of Human
Resources develop a single, comprehensive set of policies and procedures for time and
attendance activities.”

Also, we have replaced Charts 2 and 3 with Tables 2 and 3 to clarify the information
presented and to address SSA’s technical comments.




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)       iii
                                                              Table of Contents

                                                                                                                                  Page

INTRODUCTION .................................................................................................................1


RESULTS OF REVIEW .....................................................................................................4


  Time and Attendance Documentation Was Not Properly Maintained to

  Support All Payroll Expenditures. ..................................................................................4


       Required Documentation Supporting Hours Worked Was Not

       Retained ......................................................................................................................4


  Timekeeping Units Using Manual Sign-In/Out Rosters Did Not Always

  Maintain Adequate Separation of Incompatible Duties ..............................................5


       Not All Supervisors and Timekeepers Verified Own Sign-In/Out

       Forms...........................................................................................................................5


  Supervisors Did Not Always Properly Approve Leave Applications and

  Credit Hour Authorizations ..............................................................................................6


       Approximately One-Fifth of Leave Applications Was Either Missing or

       Incomplete...................................................................................................................7


       Most Timekeeping Units Did Not Have Required Documentation

       Showing Approval to Earn Credit Hours.................................................................7


CONCLUSIONS AND RECOMMENDATIONS .............................................................9


OTHER MATTERS...........................................................................................................11


APPENDICES

APPENDIX A – Agency Comments

APPENDIX B – Location of Reviewed Timekeeper Units - Payroll Periods

APPENDIX C – OIG Contacts and Staff Acknowledgements




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)
                                                                 Acronyms

 AFGE                       American Federation of Government Employees

 DoI                        Department of the Interior

 Form OPM SF-71             Application for Leave

 Form SSA-71                Application for Leave

 Form SSA-29                Serial Overtime or Holiday Work Attendance Roster

 Form SSA-30                Serial Time and Attendance Roster

 Form SSA-3439              Request to Work Credit Hours

 FPPS                       Federal Personnel and Payroll System

 FY                         Fiscal Year

 GAO                        General Accounting Office

 HHS                        Department of Health and Human Services

 MTAS                       Mainframe Time and Attendance System

 OHR                        Office of Human Resources

 OPM                        Office of Personnel Management

 SSA                        Social Security Administration





Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)
                                                                  Introduction

OBJECTIVE

The objective of this audit was to evaluate employee’s adherence to policies and
procedures for documenting and recording time and attendance data for payroll
purposes in the Social Security Administration’s (SSA) non-Headquarters offices.

BACKGROUND
Employees’ salaries and benefits represent a major financial outlay for SSA. For
Fiscal Year (FY) 1999, SSA paid almost $3.6 billion in salaries and leave benefits for its
64,712 employees. The non-Headquarters offices’ 43,216 employees accounted for
$2.3 billion of that total. The accuracy of these payroll expenditures is contingent on an
accurate documentation of employees’ daily work attendance.

To help ensure the accuracy and completeness of time and attendance data, most SSA
non-Headquarters offices maintain a daily Serial Time and Attendance Roster
(Form SSA-30) for employees to sign upon their arrival and departure (sign-in/out) as
well as record leave usage, credit hours, or religious compensatory hours worked.
When working holidays, compensatory hours or overtime, employees are required to
use the Serial Overtime or Holiday Work Attendance Roster (Form SSA-29) to sign-
in/out. During the period under audit, FY 1998, except for unusual circumstances,
employees were required to submit Office of Personnel Management's (OPM)
Application for Leave (Form OPM SF-71) for supervisor approval before using leave.
As of December 1998, SSA had implemented its own Application for Leave
(Form SSA-71). Employees are required to submit SSA’s Request to Work Credit
Hours (Form SSA-3439) for supervisor’s approval before working credit hours.

Timekeepers use the information from these completed Forms to record time and
attendance data in SSA's computerized Mainframe Time and Attendance System
(MTAS). The timekeeper's supervisor reviews the recorded data and certifies its
authenticity. This procedure increases the accuracy and reliability of SSA’s time and
attendance data per applicable guidelines. 1 Timekeepers are required to retain these
Forms for 3 years.2 Once supervisors certify time and attendance data, SSA's National



1
 SSA does not have its own comprehensive set of time and attendance procedures, but rather uses
numerous sources for time and attendance guidance, for example, the General Accounting Office’s
(GAO) Policy and Procedures Manual for Guidance of Federal Agencies, title VI—Pay, Leave, and
Allowances, chapter 3 (revised March 1996) and Revisions to title 6 on Pay, Leave, and Allowances;
Department of Health and Human Services’ (HHS) Timekeeping Manual for Timekeepers/Supervisors
and Guide for Timekeepers; and SSA’s MTAS Training Manual and MTAS User Manual.
2
    HHS’ Timekeeping Manual for Timekeepers/Supervisors (August 1993), pages 1-14.

Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)                   1
Computer Center formats the MTAS data file for the Department of the Interior (DoI).3
This file is electronically forwarded, and DoI matches it with the Federal Personnel and
Payroll System 4 (FPPS) to pay SSA's employees. The FPPS file contains payment and
leave information (that is, pay rate, leave status, etc.).

SSA's Office of Human Resources (OHR) concluded that SSA's time and attendance
system was labor intensive. OHR calculated an automated time and attendance system
would save a minimum of 141 workyears annually for recording time and attendance
data in the MTAS data base. In addition, information provided by the Office of
Workforce Analysis indicated higher-graded employees than intended were performing
a significant amount of the workload.5 Generally, lower-graded employees, such as
Grades 3 or 4, perform time and attendance work. However, as many as 4,401 Grade
11 through 15s may be performing time and attendance related duties (see Chart 1).

      Chart 1: SSA Employees, Grades 11 Through 15, Who Perform Time and
               Attendance Duties


                   Grade 12
                     31%

                                                                      Grade 11
                                                                        35%



              Grade 13
                                                             Grade 15
                24%                           Grade 14
                                                               1%
                                                9%


To address SSA’s time and attendance issues, OHR formed a Time and Attendance
Workgroup. The Workgroup is examining time and attendance processes and
developing recommendations/requirements for automating SSA’s time and attendance
system.




3
    DoI is SSA's payroll provider.
4
    FPPS is maintained by SSA's OHR.
5
  Most SSA employees are identified by a Grade Series, that is, GS-343, Grade 12. Generally, the higher
the grade, the higher the salary paid (for example, Grade 12 is paid more than a Grade 11).

Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)                    2
SCOPE AND METHODOLOGY

We randomly selected eight “timekeeper unit-pay periods” 6 during FY 1998 to evaluate
adherence to time and attendance policies and procedures (see Appendix B). To
determine whether time and attendance policies and procedures were consistently
followed, we visited each location and reviewed each unit’s time and attendance
documents used to support payroll expenditures. We compared the reviewed
documentation with each employee’s MTAS record to determine whether time and
attendance and leave data had been correctly and consistently reported and recorded.

We also interviewed each unit’s timekeeper and supervisor/manager to determine
whether time and attendance regulations and guidelines were known and consistently
followed. Further, we made unannounced visits to non-Headquarters offices to verify
that employees who were at work the day of our visit had signed in. We also
determined the whereabouts of employees who had signed in and the status of
employees who were on the unit's roster, but had not reported to work.

We audited non-Headquarters offices within the Office of the Deputy Commissioner for
Operations and the Office of General Counsel. We conducted this audit from April 1999
to March 2000 in accordance with generally accepted government auditing standards.




6
  SSA divides its employee workforce into groups called “timekeeper units.” For FY 1998, there were

2,357 timekeeper units and 27 pay periods that related to each unit. To develop our sample, we arrayed

the timekeeper units by pay period. For example, our sample population began with timekeeper

unit 1 - pay period 1; timekeeper unit 1 - pay period 2, etc., and ended with timekeeper unit 2,357 - pay

period 27. Once arrayed, we randomly selected eight timekeeper unit - pay periods.




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)                       3
                                                    Results of Review

We found that SSA’s policies and procedures for documenting and recording time and
attendance data were not consistently followed. Specifically, SSA’s non-Headquarters
offices did not retain complete and accurate documentation, maintain adequate
separation of incompatible duties, and effectively perform management oversight.

Time and Attendance Documentation Was Not Properly Maintained
to Support All Payroll Expenditures
                                Our review found that, to varying degrees, timekeepers
Required Documentation          in seven of the eight sampled units did not fully comply
Supporting Hours Worked         with policies and procedures requiring retention of time
Was Not Retained                and attendance documentation for at least 3 years. 7
                                Employees were paid for hours that were not always
                                supported by underlying time and attendance records.
For the eight units we reviewed, documentation was not available for 2,922¾ hours (see
Table 1). In one timekeeping unit, neither the manager nor the timekeeper could
provide us with the required documentation to confirm 2,304 work hours that had been
recorded in MTAS and for which employees were paid. The timekeeper informed us
that the time cards had been destroyed at the end of the payroll year. The manager
reported being unaware that the time cards needed to be retained.8

         Table 1. Time Recorded on MTAS with No Supporting Time and Leave
                  Documentation
                                       Number of Incidences         Total Number of Hours
           Timekeeping Unit           with No Supporting Data      with No Supporting Data
                     1                            38                           223
                     2                            4                              32
                     3                            52                            317¾
                     4                            5                              10
                     5                            1                               4
                     6                            5                              32
                     7                            0                               0
                     8                         Unknown                        2,304
                    Total                       105                           2,922¾




7
    See footnote 2 above.

8
    For this unit, time cards were used in lieu of Form SSA-30.


Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)           4
After our site visits, managers from timekeeper Units 1 and 3 located certain missing
time and attendance documentation. For Unit 1, the discovered documentation
accounted for 34 of 38 incidences, totaling 200¼ hours, leaving 22¾ hours that were
paid but not supported by underlying documentation. For Unit 3, we found
documentation that accounted for 222¼ hours, leaving 95½ hours that were paid but
not supported by underlying documentation. Unit relocation was the reason given by
Unit 1's manager for the missing documentation. We were told that boxes containing
the information were mislabeled or misplaced during a recent move. Unit 3’s manager
reported documentation was misplaced or lost while being moved to a new file cabinet.
Since about 2,500 hours were not properly documented, employees may have received
unearned leave or pay and/or been charged for leave that they did not use.

Timekeeping Units Using Manual Sign-In/Out Rosters Did Not
Always Maintain Adequate Separation of Incompatible Duties
                               Timekeepers and supervisors are required to have their
                               time and attendance records independently
Not All Supervisors and
                               authorized/verified.9 Six of the eight timekeeping units
Timekeepers Verified
                               we reviewed used a manual sign-in/out roster
Own Sign-In/Out Forms
                               (Form SSA-30). As shown in Table 2, for these six units,
                               almost 30 percent of the time and attendance records for
supervisors were self-verified by a supervisor. In Units 3 and 6, supervisors always
complied with the requirement for independent verification of their sign-in/out roster.
However, for 39 of 64 instances, supervisors in Units 1, 2, 4, and 5 self-verified their
own Form SSA-30 and, as a result, did not adhere to the independence requirement.

Table 2. Instances in Which Supervisors’ Forms SSA-30 Were Either Independently or
          Self-Verified by a Supervisor
                                    SUPERVISORS

           Unit               Independently    Self-                                       Percent
                                                                        Total
          Number                 Verified     Verified                                  Self-Verified
            1                      17            12                       29             41.4*
            2                       3             7                       10             70.0*
            3                      45             0                      45                0.0

            4                       5             5                       10              50.0*
            5                       0            15                       15            100.0*
            6                      22             0                      22                0.0*

          TOTAL                    92            39                      131            29.8%**

 *Percent of times each unit had a supervisor self -verify a time and attendance record.
**Total percent of instances in which supervisors self-verified their own time and attendance
  records, that is 39 of 131 times.




9
    HHS’ Guide for Timekeepers (October 1986), pages 2-13.

Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)                      5
As shown in Table 3, for the six units using a manual sign-in/out process, over
one-third of the time and attendance records for a timekeeper were self-verified by a
timekeeper. Units 3, 4, and 6 always complied with the requirement for independent
verification of their own sign-in/out roster. However, for 26 of 32 instances, timekeepers
in Units 1, 2 and 5 self-verified their Form SSA-30, resulting in non-adherence with the
independence requirement.


Table 3. Instances in Which Timekeepers’ Forms SSA-30 Were Either Independently or
          Self-Verified by a Timekeeper
                                  Timekeepers
       Unit              Independently         Self-                   Percent
                                                       Total
     Number                 Verified          Verified               Self-Verified
         1                      5               11      16                 68.8*
         2                      1                6       7                 85.7*
         3                     16                0      16                  0.0*

         4                     10                0      10                  0.0*

         5                      0                9       9                100.0*
         6                     16                0      16                  0.0*

     TOTALS                    48               26      74                 35.1**

 *Percent of times each had a timekeeper self-verify a time and attendance record.
**Total percent of instances in which timekeepers self-verified their own time and attendance
  records, that is 26 of 74 times.

Managers stated various reasons for not adhering to the separation of duties
requirement. For example, managers stated staff did not clearly understand the policy
for sign-in/out procedures. Staff misunderstood and believed the independent
verification policy only applied to an MTAS entry. In addition, managers for smaller non-
Headquarters offices reported they did not always have staff to ensure independent
verification of timekeeper’s and supervisor’s time. When a timekeeper or supervisor
can verify his/her own sign-in/out information, there is increased potential for fraudulent
activity. An individual can easily falsify his/her time and attendance information with
little opportunity for detection.

Supervisors Did Not Always Properly Approve Leave Applications
And Credit Hour Authorizations
Supervisors are accountable for their employees’ work times and absences.10 Except
for emergencies, all leave is to be requested in advance in writing from the employee's
supervisor. During the period under audit, SSA used Form OPM SF-71 to satisfy this
requirement. However, as of December 1998, SSA had implemented its own
Form SSA-71. Supervisors are required to review Form OPM SF-71 for completeness

10
   GAO’s Policy and Procedures Manual for Guidance of Federal Agencies, title VI – Pay, Leave, and
Allowances, chapter 3, part 1, section 3.3, subsection A (revised March 1996).



Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)                   6
and accuracy and, if the request is approved, sign the form in the appropriate place.11
Also, timekeeping units are required to retain Form OPM SF-71 for 3 years after the
close of the leave year.12

                                      We found evidence of insufficient supervisory
Approximately One-Fifth of            oversight relating to employees’ leave slips and
Leave Applications Was Either         credit hours. We could not locate leave
Missing or Incomplete                 applications for 108 of 590 employee absences
                                      requiring Form OPM SF-71.13 The missing
                                      Forms represented more than 339 hours of leave
used. For example, one unit could not provide us with Forms for 56 of 75 situations
(74.7 percent) requiring leave slips. Supervisors did not ensure that all employees
taking leave submitted Form OPM SF-71 and/or the Form was retained for inspection
for the required time period.

Without such supervisory vigilance, there is increased potential for an individual to alter
his/her time and attendance information with low risk of detection. Also, employees
could be paid incorrectly and their leave inaccurately recorded.

                                   Earning credit hours also requires a supervisor’s
                                   approval.14 GAO states that supporting time and
Most Timekeeping Units Did         attendance records should be completed and
Not Have Required                  maintained, including documents establishing credit

Documentation Showing              hours earned and used.15 However,

Approval to Earn Credit Hours three-fourths of our sampled timekeeping units

                                   could not provide part or any supporting

                                   documentation to substantiate that supervisory

approval had been given to the employee to work credit hours (see Table 4).
One-third of the units sampled had no documentation whatsoever.




11
     HHS’ Timekeeping Manual for Timekeepers/Supervisors (August 1993), pages 4-6.

12
     See footnote 2 above .

13
  According to SSA Form-30 and/or MTAS, there were 590 employee absences requiring Form OPM SF-

71.
14
     HHS’ Guide For Timekeepers (October 1986), pages 13-20.
15
  GAO’s Policy and Procedures Manual for Guidance of Federal Agencies, title 6, chapter 3, subsection
3.5.C, pages 3-5 (revised March 1996).

Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)                      7
     Table 4. Incidents of Credit Hours Worked Requiring Approval
                Documentation
                                  Had Required          Did Not Have Required
        Timekeeping Unit         Documentation             Documentation
                1                       21                        38
                2                       20                         0
                3                       57                        31
                4                        0                        62
                5                       11                        10
                6                        0                        55
                7                        0                         0
                8                        0                        28
                              Total     109                      224


Supervisors did not follow procedures requiring formal approval for employees to work
credit hours and/or did not ensure that timekeepers were retaining the required
documentation of authorization to earn credit hours. Approval for working credit hours
is an essential supervisory function. Without fully enforcing credit hour procedures,
employees can potentially use credit hours not earned or be paid for such hours without
detection.




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)    8
                                       Conclusions and
                                          Recommendations
The SSA non-Headquarters offices did not consistently follow time and attendance
policies and procedures. More specifically, payroll expenditures were not always
supported with required underlying documentation; adequate separation of incompatible
timekeeping duties were not always adhered to by supervisors and timekeepers, as
required; and management oversight was inadequate. SSA non-Headquarters offices’
lack of compliance with policies and procedures undermines the integrity of SSA’s time
and attendance payroll system by providing the potential for circumvention of internal
controls built into the system. It also increases vulnerability to fraud, waste and abuse
by providing employees with the opportunity to manipulate time and attendance records
without timely detection, and increases susceptibility to incorrect payment of salaries,
over/under payroll budgeting, and inaccurate accrual and use of leave.

To prevent further vulnerability to errors, as well as fraud and abuse, we recommend
that:

1. SSA issue directives to all non-Headquarter offices that:

   a. 	Timekeepers retain and maintain complete time and attendance documentation
       in support of all time and attendance data in accordance with SSA retention
       requirements.

   b. 	Office managers ensure that they, their supervisors and timekeepers document
       time and attendance in accordance with SSA policy and procedures.

   c. 	Office managers ensure that they and their supervisors obtain, sign, and verify
       SSA’s Application for Leave (Form SSA-71) for completeness and accuracy.

2.	 SSA’s OHR develop a single, comprehensive set of policies and procedures for time
    and attendance activities.

3.	 SSA should develop and implement an automated payroll time and attendance
    system that would facilitate adherence to its policies and procedures, incorporate
    strong internal controls and be less labor intensive than the current process.

AGENCY COMMENTS
SSA agreed with the original first three parts of Recommendation 1 as it appeared in
our draft report. However, SSA disagreed with the original fourth part of
Recommendation 1 that addressed the requirement for employees’ to have written
supervisory approval prior to earning credit hours. The Agency pointed out that, since


Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)       9
the completion of our audit work, there has been a change in this requirement.
According to SSA’s contract with the American Federation of Government Employees
(AFGE), employees can obtain either oral or written supervisory approval.

SSA also disagreed with Recommendation 2, stating it already has a comprehensive
set of time and attendance policies and procedures. The Agency also pointed out it is
developing a new time and attendance system. During this process, the Agency will
review its time and attendance policies and procedures to ensure consistency and
accuracy with the new automated system.

The Agency agreed with Recommendation 3.

OFFICE OF THE INSPECTOR GENERAL’S RESPONSE

We agree the new AFGE contract makes it impossible for SSA to address the original
fourth part of Recommendation 1. Therefore, we are not including this part of the
recommendation in our final report.

For Recommendation 2, SSA stated it believes it already has a comprehensive set of
policies and procedures for time and attendance activities. We agree. However, they
are contained within a number of different sources, such as from the General
Accounting Office, the Department of Health and Human Services, and the Agency’s
Mainframe Time and Attendance System manuals. These are not consolidated in a
single, comprehensive set that are specific to SSA. To clarify our meaning of
“comprehensive,” we are modifying our recommendation to read: “SSA Office of Human
Resources develop a single, comprehensive set of policies and procedures for time and
attendance activities.”

Also, we have replaced Charts 2 and 3 with Tables 2 and 3 to clarify the information
presented and to address SSA’s technical comments.




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)      10
                                                            Other Matters

During our audit, we identified other time and attendance deficiencies. Even though we
determined they represented too few incidences to constitute a major finding, we
believe SSA needs to be aware that these are potential indicators of internal control
weaknesses which make time and attendance records vulnerable to fraud, waste and
abuse.

1.	 In 13 of 286 instances where employees used leave, they did not properly record the
    type of leave used. In 33 situations, they did not annotate the time of absence on
    the Form SSA-30.

2.	 For 43 of 1,565 individual sign-in/out occurrences, employees did not sign in and
    68 times they did not sign out in chronological order.

3.	 On 80 of 251 Forms SSA-30 and Forms SSA-29, the timekeeper/employee failed to
    line through the blank spaces, as provided.




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)      11
                                          Appendices





Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)
                                                                        Appendix A


Agency Comments





Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
"ADHERENCE TO TIME AND ATTENDANCE POLICIES AND PROCEDURES IN THE
SOCIAL SECURITY ADMINISTRATION’S NON-HEADQUARTERS OFFICES
(A-13-99-91025)

SSA issue directives to all non-Headquarter offices that:

Timekeepers retain and maintain complete time and attendance documentation in support of all
time and attendance data in accordance with SSA retention requirements.

Office managers ensure that they, their supervisors and timekeepers document time and
attendance in accordance with SSA policy and procedures.

Office managers ensure that they and their supervisors obtain, sign, and verify SSA’s
Application for Leave (Form SSA-71) for completeness and accuracy.

Office managers ensure that all their employees complete and submit a Request To
Work Credit Hours (Form SSA-3439) and obtain supervisor approval before working
credit hours. In addition, the managers should ensure that these forms are retained and
maintained in accordance with SSA retention requirements.

Comment

We agree with the first three items, believing that it would be beneficial to reinforce our policies
and procedures through a reminder item issued to office managers. The Deputy Commissioner
for Operations will issue the reminder by the end of February 2001.

However, we cannot agree with the fourth item. The current contract with the American
Federation of Government Employees [Article 10, Appendix A, Section 14.D--Requesting Credit
Hours (pp. 10-18 of the LR Handbook for Managers)] states that "the employee has the option to
request the opportunity to earn credit hours orally, or in writing.…" While the requirement to
complete the form was in force at the time of OIG’s review, it is no longer a requirement and any
guidance can only restate that employees must request the opportunity in advance.




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)               A-2
Recommendation 2

SSA Office of Human Resources develop a comprehensive set of policies and procedures for
time and attendance activities.

Comment

We believe a comprehensive set of policies and procedures for time and attendance activities
already exists. However, as indicated in our response to the following recommendation, we are
pursuing a new time and attendance system. Prior to implementation of the new system, SSA
will review its time and attendance policies and procedures to ensure consistency and accuracy
with the new automated system.

Recommendation 3

SSA should develop and implement an automated payroll time and attendance system that would
facilitate adherence to its policies and procedures, incorporate strong internal controls and be less
labor intensive than the current process.

Comment

We agree. The Agency is currently testing automated time and attendance software called
Quicktime that is maintained by the Department of Interior. SSA specific requirements have
been identified and are being incorporated into the software. We believe that implementation of
this software, beginning in late calendar year 2001, will provide a less labor intensive solution
with strong internal controls. Subsequent releases of the software will provide enhanced
management information and functionality.

Technical Comments

Page 1, 3rd paragraph – The report incorrectly states that Form SSA-30 is used by most SSA
non-headquarters offices for employees to record compensatory hours worked. Form SSA-29
(Serial Overtime or Holiday Work Attendance Roster) is used for this purpose.

We believe that Charts 2 and 3 on pages 5 and 6, respectively are mathematically incorrect,
overstating the percentage of the identified errors. For example, Chart 2 shows that supervisors
incorrectly verified their own sign in/out rosters 29 percent of the time and handled this correctly
only 71 percent of the time. Based on information provided in the text of the report, it appears
the total percentage of errors were in the range of 4 –11 percent and that this was handled
correctly approximately 90 percent of the time. For example, if the Unit 1 supervisor incorrectly
verified his/her record 9 percent of the time, then he/she handled it correctly the other 91 percent
of the time. The individual unit numbers would fall out as follows:




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)               A-3
                         Incorrect      Correct

    Unit 1               9 percent 91 percent
    Unit 2               5 percent 95 percent
    Unit 4               4 percent 96 percent
    Unit 5              11 percent 89 percent
    2 Other Units        0 percent 100 percent

The individual, incorrect percentages for units 1, 2, 4 and 5 have been incorrectly added and then applied
as the percentage for the total. If no individual unit falls below 89 percent, the aggregate cannot be 71
percent. Chart 3 makes the same error.




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)                    A-4
                                                                        Appendix B


              Location of Reviewed

         Timekeeper Units - Payroll Periods


UNIT REVIEWED                         LOCATION

District Office
                      Baltimore, Maryland

Data Operations Center
               Wilkes-Barre, Pennsylvania

Office of General Counsel
            Atlanta, Georgia

Branch Office
                        Parkersburg, West Virginia

Teleservice Center
                   Los Angeles, California

Branch Office
                        Evanston, Illinois

Area Director Office
                 Denver, Colorado

Program Service Center
               Kansas City, Missouri





Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)
                                                                        Appendix C


OIG Contacts and Staff Acknowledgements

OIG Contacts

   Shirley E.Todd, Director, General Management Audit Division
   (410) 966-9365

   Carolyn R. Neuwirth, Deputy Director, General Management
   (410) 966-1404

Acknowledgements
In addition to those named above:

   Carl K. Markowitz, Audit Manager, Financial Management

   Thomas P. Tennant, Auditor-in-Charge

   Franklin H. Williams, Jr., Senior Auditor

   Steve W. Weal, Senior Auditor

   Kimberly Beauchamp, Writer-Editor, Policy, Planning and Technical Services
   Division

For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-97-91018.




Non-Headquarters’ Adherence to Time/Attendance Policies/Procedures (A-13-99-91025)
